IN THE SUPREME COURT OF THE UNITED STATES
No.
Susan Chen.
Petitioner
v.
Kate Halamay et al.
Respondents
CERTIFICATE OF SERVICE
I, Susan Chen, hereby certify that on this 30th day of March, 2021,1 caused three
copies of the Petition for writ of certiorari to be served by priority mail on the
following counsel:
Jeremiah R. Newhall, WSBA #54959
Attorneys for Respondents
Fain Anderson Vanderhoef
Rosendahl O’halloran spillane, PLLC
701 Fifth Avenue, Suite 4750
Seattle, WA 98104
Ph: 206.749.0094
Fx: 206.749.0194
Email: ieremiah@favros.com
James Daugherty, WSBA#33332
ATTORNEY AT LAW
505 Broadway East, #209
Seattle, WA 98102
Ph: 206.484.3626
Email: daughertvlaw@protonmail.com
Pursuant to this Court’s Letter Directive, I certify that, on this 15th of May, 2021,1
caused one copy of the corrected petition for writ of certiorari and appendix to be
served by priority mail on the above counsel.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ Susan Chen
Susan Chen
PO BOX 134 Redmond, WA98073

